                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                 ,
Case Number: A-IOOI0007                                                                    Page 1 of1



         We received an allegation of plagiarism 1 inan NSF proposal2 submitted by the subject. 3 Our
         evaluation showed insufficient substance to support the allegation of plagiarism.

         Accordingly, this case is closed and no further action will be taken.




NSF OlG Form 2 (11102) .
